I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

B A Y O N, C A R L O S
P etiti o n er
vs.

N o:

2 0- 8 1 1 6

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
M a y 2 7, 2 0 2 1
c c:
J
D
P
A

A
R
O
U

M E S J. D R A K E
A K E L A W, L L C
B O X 56
B U R N, M E 0 4 2 1 2

